    INVESTMENT MANAGEMENT
          NO-ACTION AND
      INTERPRETIVE LETTERS

                     EXECUTIVE SUMMARY
We reviewed the process for preparing, issuing, and tracking no-action and
interpretive letters in the Office of Chief Counsel, Division of Investment
Management. Several offices within the Division processed these letters. However,
we focused on the process in the Office of Chief Counsel because it processed
approximately 88% of the no-action and interpretive matters closed in FY 1999. We
found that the Office’s process was generally effective in preparing, issuing, and
tracking these letters.
Our recommendations address ways in which the Office of Chief Counsel can
enhance its efficiency and effectiveness in processing letters. Our recommendations
include: issuing and enforcing guidance for submitting requests; developing and
implementing formal timeframes in processing letters; distributing written
procedures; and improving workload information. We also suggested that the
Division put these letters on the Commission’s website.
In addition, we suggested that the Office of Public Utility Regulation enter into its
tracking system the initial dates that it received no-action letter requests.
Prior to our audit, the Office of Chief Counsel began to implement a new letter log
tracking system, add additional workload categories to the system, and change its
procedures for updating the system. These steps will help improve the Office’s
workload tracking.


                  SCOPE AND OBJECTIVES
The objective of this audit was to evaluate the effectiveness and efficiency of the
Division of Investment Management’s (IM) process for preparing, issuing, and
tracking no-action and interpretive letters. We reviewed IM’s process for letters
issued in FY 1999. We did not evaluate IM’s interpretation of the securities laws in
these letters. Also, we did not evaluate IM’s process for preparing, issuing, and
tracking no-action letters relating to shareholder matters under Rule 14a-8 (17
C.F.R. 240.14a-8).
We reviewed applicable regulations and procedures and interviewed staff in the
Division of Investment Management’s Office of Chief Counsel (OCC), Office of Public


Audit Report No. 316                                              September 28, 2000
                                                                              Page       2

Utility Regulation, and the Office of Insurance Products. Also, we contacted
attorneys involved with no-action letters in the Divisions of Market Regulation and
Corporation Finance. In addition, we contacted attorneys at the Commodity Futures
Trading Commission (CFTC) and the Investment Company Institute (ICI) to discuss
the no-action letter process.
The audit fieldwork was performed between April and August 2000, in accordance
with generally accepted government auditing standards.


                            BACKGROUND
The Division of Investment Management’s Office of Chief Counsel provides no-action
relief and interpretations to entities primarily regarding the Investment Company
Act of 1940 and the Investment Advisers Act of 1940. IM’s Office of Insurance
Products, Office of Investment Company Regulation, and its Office of Public Utility
Regulation also issued a small number of no-action and interpretive letters.
No-action and interpretive letters provide the public with informal interpretations of
the federal securities laws and the Commission’s rules, and assurances that the
divisions would not recommend enforcement action under these laws and rules as a
result of proposed transactions or actions. These letters represent the views of the
staff and are not binding on the Commission. Also, no-action letters do not preclude
the Enforcement Division from recommending enforcement action as a result of the
transaction, although this rarely occurs.
The investment company industry refers to these letters for guidance in areas of the
law in which guidance does not otherwise exist because of the relative lack of case
law or formal Commission rules and interpretations. No-action letters represent a
prospective method of promoting compliance with the securities laws by providing
the industry with guidance before transactions are executed. These letters give the
industry flexibility in conducting business while protecting investors and reducing
the regulatory burden on the industry.
As noted above, the OCC processes approximately 88% of IM’s no-action letters.
IM’s Chief Counsel heads this office. The OCC is organized into two offices, the
Offices of International Issues and Financial Institutions, each headed by an
Assistant Chief Counsel. Each Assistant Chief Counsel has one special counsel and
from five to eight staff attorneys reporting to them. While OCC’s processing of no-
action and interpretive letters is described below, the other offices in IM that issue
no-action and interpretive letters use a similar process.
Entities requesting interpretive or no-action letters submit their written requests to
the OCC. The Chief Counsel and the Assistant Chief Counsels scan the requests
and decide which office will review which requests. The Assistant Chief Counsels
attempt to assign the requests to particular staff attorneys based on the attorneys’
interest and experience in an area as well as their current workloads. If the issues
in the request involve other offices or divisions in the Commission, the OCC sends
them a copy of the request.


Audit Report No. 316                                             September 28, 2000
                                                                               Page    3

The staff attorneys review the letters in detail to determine the question posed and
the relief requested. Also, they research previous letters, applicable laws and
regulations, and other sources. They contact the requester for any needed
clarifications and additional information. They then discuss their preliminary
results with the special counsel, Assistant Chief Counsel, and, if needed, the Chief
Counsel.
If the OCC decides that a written response is appropriate, the staff attorney will
prepare a draft letter and forward it to the special counsel or Assistant Chief
Counsel. The special counsel and the Assistant Chief Counsel review the draft,
make any needed revisions, and forward it to the Chief Counsel for review. After
the Chief Counsel’s review and approval, the staff attorney typically signs the letter
and issues it to the requester. Any related responses from other Commission offices
and divisions are incorporated into the letter or sent separately by the office or
division. The staff attorney then sends copies of the request and letter to the IM
Library, to selected Commission staff depending on the subject matter, and to Public
Reference.
If the OCC decides that a written response is not warranted, it will contact the
requester by telephone. The OCC might advise the requester to seek exemptive
relief, point out the applicable guidance when the law is clear on the matter, or
provide appropriate oral guidance. The OCC generally does not provide oral no-
action relief.


                           AUDIT RESULTS
The OCC’s no-action and interpretive letter process appears to provide the Division
with an effective means to issue guidance to the public in applying substantive areas
of the 1940 Acts. The OCC, however, could implement additional steps to ensure
the guidance is provided as quickly as possible.

Guidance
Staff attorneys indicated a high degree of confidence in the guidance and support
provided by managers. We distributed a questionnaire to the 14 staff attorneys who
were in the OCC at the time of our audit. A total of 13 of those attorneys responded
to our questionnaire. One of the questions asked whether the attorneys received any
training in processing no-action and interpretive letters. Of the 13 attorneys that
responded, 9 indicated that they received no such training. Of the 9 that received no
training, 8 rated their level of guidance and support as “excellent” or “good”. In fact,
6 of the 8 felt that training was unnecessary.
Another question asked whether written guidance was needed. Of the 12 responses
to our question, 8 indicated no need for it. Of the 8 that indicated no need for
written guidance, 7 rated their level of guidance and support as “excellent” or “good”.
A third question asked the attorneys about their understanding of management’s
expectations. Of the 13 responses, 10 indicated that they had an “excellent” or
“good” understanding of management expectations. These responses indicate that a

Audit Report No. 316                                              September 28, 2000
                                                                                              Page      4

majority of the staff attorneys feel that their managers are doing an excellent to
good job of communicating their expectations and of providing guidance and support
to them.

Submission of Requests
OCC staff and managers indicated that poorly drafted request letters were one of
the biggest obstacles to the no-action and interpretive letter process. The OCC,
however, generally will not reject these letters. Instead, the staff coordinates with
the requester to resolve any issues with particular no-action letters. The OCC staff
considered a certain amount of clarification of the request letter to be normal.
Poorly drafted request letters, however, require more research and clarifications by
the staff than necessary. As a result, staff attorneys spend considerable amounts of
time performing research, analysis and other activities, including revising the
request letters that should possibly have been performed by the requesters and their
counsel.
In Investment Company Act Release No. 14492, dated May 8, 1985, the Commission
provided specific procedures for submitting applications for exemptive relief from
certain provisions of the Investment Company and Investment Advisers Act of 1940.
Persons submitting requests for no-action and interpretive letters were also required
to follow this guidance where applicable. Most of the attorneys we spoke with were
unfamiliar with these procedures so requesters were not required to follow the
guidelines in the Release. The Commission issued several other, more general
guidelines for submitting requests1. Release No. 14492, however, appears to provide
the most detailed guidance.

           Recommendation A
           The Division of Investment Management should make entities that request
           no-action and interpretive letters aware of the guidelines in Release 14492.
           If necessary, the Division should develop and publish additional guidelines
           that are tailored exclusively for no-action and interpretive letter requests.
           The Division should consider posting any new guidelines on the Commission’s
           Web site. Also, the Division should ensure that entities follow the guidance
           in drafting and submitting their requests.

Timeframes
OCC managers review weekly reports on the status of the no-action and interpretive
letters assigned to their staff. They use these reports to track the progress of the
letters. Because of the diversity of topics addressed in the letters and the complexity
of many of the issues presented in the requests, the OCC does not set specific time
frames for the various steps in the processing of requests.
Sometimes, in processing no-action and interpretive requests, OCC attorneys
request supplemental information from requesters. OCC does not provide a

1
    Securities Act of 1933 Releases No. 6269, December 5, 1980; No. 6253, October 28, 1980; No. 5127,
     January 25, 1971; and No. 5098, October 29, 1970.

Audit Report No. 316                                                            September 28, 2000
                                                                             Page   5

response until after it receives and reviews the supplemental information. The OCC
also does not set time limits for the requesters to submit their supplemental
information.
Investment Company Release No. 14492 states that the Division is to provide initial
comments on exemptive applications within 45 days of receipt of the application,
with additional time allowed for novel or complex applications. Requesters must
submit supplemental information within 60 days of receipt of comments or explain
in writing why additional time is needed. These guidelines also apply to no-action
and interpretive letters to the extent applicable.

       Recommendation B
       The OCC should examine whether internal processing timeframes are
       appropriate for the no-action and interpretive letter process. For example, it
       could establish timeframes for contacting the requesters on the status of their
       requests.

Written Procedures
As noted above, OCC staff attorneys rated their managers highly in terms of
guidance, support, and in ensuring that the staff understood what was expected of
them. These responses indicated a high degree of confidence in management.
However, these responses also suggest that, for a number of staff attorneys,
managers provide their primary source of guidance.
Most of the OCC staff indicated that they learned how to process no-action and
interpretive letters through actually processing them. Only one staff attorney in our
survey acknowledged receipt of written procedures. These procedures, “Guidelines
for Responding to No-Action Requests and Handling Public Inquiries”, were
apparently developed and used by attorneys who are no longer with the
Commission. It is not clear exactly when these guidelines were developed, one
attorney estimated that they were developed over three years ago. The OCC
managers were not immediately familiar with them. The lack of written policies and
procedures could result in inefficiencies (e.g., managers unnecessarily providing
verbal guidance to the staff).
The OCC generally disagreed that the lack of written policies and procedures
resulted in managers spending more time providing procedural guidance. The OCC
indicated that the managers provide guidance to the staff attorneys on the legal
substance of the no-action and interpretive requests.
The current OCC staff is experienced in processing no-action and interpretive
letters. New attorneys, however, would need to learn the procedures. In the absence
of written policies and procedures, other OCC staff attorneys or managers would
become the primary source of guidance for new attorneys in identifying legal
research sources, consulting with other offices, divisions and agencies, or
determining the appropriate response format. Written policies and procedures
would provide another source of guidance for these new attorneys.



Audit Report No. 316                                            September 28, 2000
                                                                                                    Page        6


           Recommendation C
           The OCC should review the “Guidelines for Responding to No-Action
           Requests,” revise it as appropriate, and ensure that all appropriate staff
           receives a copy.

Internal List of Contacts
OCC attorneys sometimes contact attorneys in other divisions for advice on specific
areas of the securities laws. If the OCC attorneys know whom to contact, they will
contact that attorney by phone or electronic mail. If they do not know which
particular attorney to contact, they will contact the head of the appropriate office.
One questionnaire response included a recommendation for an internal list of
subject matter experts in securities law that OCC staff could call for specific
questions. The list would include the attorneys’ direct dial telephone number. A list
would provide all OCC attorneys, especially newer attorneys, with direct contacts for
securities law questions.
Some OCC managers expressed reservations concerning developing such a list.
They were concerned about the inappropriate release of the attorneys’ direct dial
numbers and problems with the accuracy of the list because of the degree of attorney
turnover throughout the Commission.

           Recommendation D
           The OCC should, in cooperation with other Commission offices and divisions,
           determine the feasibility of developing an internal list of Commission
           securities law subject matter experts that OCC staff can call for assistance.
           If feasible, the OCC should develop the list.

Workload Information
OCC reported 360 interpretive matters and no-action requests closed in FY 1999.
This category included 59 confidential treatment requests on Form 13f.2
The Office classified its workload into three categories: no-action and interpretive
matters; shareholder and investor inquiries; and special projects. The OCC
explained that it used these categories consistently each year to categorize its
workload and calculate its budget statistics. As a result, each of these categories
includes a wide range of activities not necessarily reflected in the category titles.
The titles of these categories should better reflect the types of matters included in
them.



2
    Institutional investment managers use Form13F to report their holdings of certain securities with an
     aggregate fair market value of at least $100 million over which they exercise investment discretion. In
     certain instances, these institutional investment managers may request confidential treatment for
     information in these filings. IM reviews the request and determines if confidential treatment is
     appropriate. We refer to these requests, not instances where IM provides interpretations of Rule 13f (17
     C.F.R.240.13f-1).



Audit Report No. 316                                                                September 28, 2000
                                                                              Page      7

OCC recognized this issue and, in connection with implementing its new, web-based
letter log system, developed six additional categories for tracking workload. The
categories include a separate category for 13f confidential treatment matters. This
should improve workload tracking. Also, the new letter log system will include the
necessary fields and functionality to more accurately identify and count no-action
and interpretive letters, along with the other categories of work.
The Office of Public Utility Regulation did not enter the no-action letter request
receipt date until after preliminary work was completed. As a result, the dates in
their tracking system did not always reflect the total amount of time spent
processing the requests.

       Recommendation E
       OCC should ensure that no-action and interpretive releases and 13f matters
       are included in the categories designated for them.

       Recommendation F
       The Office of Public Utility Regulation should enter into their tracking
       system the correct date that processing began on their no-action and
       interpretive letters.


No-Action and Interpretive Letters on the SEC Website
The Commission has an Internet site where the public may download and print a
variety of documents, including company filings, proposed and final rules, and
interpretive releases. The Commission does not currently provide no-action and
interpretive letters on its website.
According to Office of Management and Budget Circular A-130, “Management of
Federal Information Resources”, agencies should use electronic media and formats
as appropriate to make government information more easily accessible and useful to
the public. Certain vendors provide databases of no-action letters, and some letters
may be found on the Internet, but the general public generally does not have easy
access to a central source for the Division’s no-action letters.
It may be impractical to place historical no-action letters on the Commission’s web
site because of the volume of letters. Also, requesters often submit their letters to
the Commission in paper form. The Commission would have to convert these
requests to an electronic format to post them to the Commission’s website. In
addition, request letters for which no response letter was issued by IM should
probably not be posted.

       Recommendation G
       The Division of Investment Management should consider placing its no-
       action letters on the Commission’s Web site as appropriate. One possible
       location is with the proposed and final rules and interpretive releases.



Audit Report No. 316                                              September 28, 2000
